No. 19-1257, 19-1258
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

AFFIDAVIT
On this 7th day of December, 2020, I, Anthony G. Lantagne, hereby certifY
that this BRIEF OF AMICUS CURIAE THE HONEST ELECTIONS PROJECT IN
SUPPORT OF PETITIONERS was sent this same day via Federal Express
Overnight Delivery to the Supreme Court of the United States. I further certifY
that I have served this same date the required copies via USPS First Class Mail
and email to the counsel of record listed below:
Marc Erik Elias
Perkins Coie, LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 434-1609
MElias@perkinscoie.com
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@1 onesday .com
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
J oe.Kanefield@azag .gov

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
(202) 639-6023
JAmunson@jenner.com
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 7th day of December, 2020.

agne
Lant
egal Printmg, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 7th day of December, 2020, and
attested that the foregoing affidavit is true and exact to the st of his knowledge
and belief.

